GR-80-99-001
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Grants to Encourage Arrest Policies
Administered by the City of Austin's Police Department
GRANT NO. 97-WE-VX-0046
 
GR-80-99-001
 
OCTOBER 14, 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
"Grants to Encourage Arrest Policies," Grant No. 97-WE-VX-0046, administered by
the City of Austin's Police Department, for the period April 1, 1997, through
August 31, 1998. The $714,535 grant, awarded by the Office of Justice Programs, is
effective from March 1, 1997, through February 28, 1999. 
During our review, we found that the grantee did not thoroughly define the
organizational structure for the Family Violence Protection Team (FVPT) or team members'
roles and responsibilities, before applying for the grant or thereafter. In addition,
personnel turnovers within the FVPT law enforcement and nongovernment agency members
contributed to the team's difficulty in functioning as a cohesive unit.

We found the following weaknesses with regard to meeting grant conditions:



The grant objective to create a cross-agency management information system was
      unobtainable because the system needed for linkage will not be operational for two to five
      years.


The FVPT had not sent representatives to the required Office of Justice Programs' (OJP)
      sponsored training.


The FVPT did not submit a semiannual Progress Report for the period June through
      December 1997 in a timely manner, which contributed to the OJP's decision to place a
      temporary hold on grant draw downs.


City of Austin accounting records did not accurately reflect the FVPT grant
      appropriations.


#####